Case: 21-1120

Document: 9

Page: 1

Filed: 01/21/2021

NOTE: This order is nonprecedential.

Muiteb States Court of appeals!
for tfje jfeberal Circuit
TRACY NIXON,
Plaintiff-Appellant
v.

GENERAL MOTORS CORPORATION,
Defendant-Appellee

2021-1120

Appeal from the United States District Court for the
Eastern District of Texas in No. 2:19-cv-00287-JRG-RSP,
Chief Judge J. Rodney Gilstrap.

ON MOTION

Per Curiam.
ORDER
Tracy Nixon responds to the court’s order to show cause
and moves to “reinstate appeal.”
Mr. Nixon’s underlying complaint alleges that General
Motors Corporation (“GM”) infringed his design ‘"before the
plaintiff could patent the invention for sale to the public.”
Compl. at 4, Nixon v. Gen. Motors Corp., No. 19-cv-00287

Case: 21-1120

2

Document: 9

Page: 2

Filed: 01/21/2021

NIXON v. GENERAL MOTORS CORPORATION

(E.D. Tex. Aug. 26, 2019), ECF No. 1. Mr. Nixon moved the
district court to enter a default judgment against GM,
which the court denied on the basis that GM was not
properly served. Mr. Nixon filed objections to the order,
which the district court overruled in an order dated August
14, 2020. Mr. Nixon subsequently moved the district court
to certify the August 14th order for interlocutory appeal
pursuant to 28 U.S.C. § 1292(b).
While that motion was pending, Mr. Nixon filed a re­
quest for permission to appeal at the United States Court
of Appeals for the Fifth Circuit and a separate request
which was docketed at this court as the above-captioned
matter. On November 4, 2020, the Fifth Circuit denied his
request because “[t]he district court’s order denying the
motion for default judgment is not a final order . . . [and]
the order has not been certified for immediate appeal under
28 U.S.C. § 1292(b) by the district court.” Nixon v. Gen.
Motors Corp., No. 20-90032 (5th Cir. Nov. 4, 2020). On De­
cember 1, 2020, the district court denied Mr. Nixon’s mo­
tion to certify the order for interlocutory appeal.
Our jurisdiction extends to cases in which a wellpleaded complaint establishes either that federal patent
law creates the cause of action or that the plaintiffs right
to relief necessarily depends on resolution of a substantial
question of federal patent law. Christianson v. Colt Indus.
Operating Corp., 486 U.S. 800, 809 (1988); 28 U.S.C.
§ 1338; 28 U.S.C. § 1295(a)(1). It has long been held that
“no suit can be maintained by the inventor against any one
for using [the invention] before the patent is issued.”
Gayler u. Wilder, 51 U.S. 477, 493 (1850). Thus, although
the complaint purports to allege infringement, it fails to
present a non-frivolous claim arising under the patent laws
and is hence outside of our limited jurisdiction. Cf. Jim
Arnold Corp. u. Hydrotech Sys., Inc., 109 F.3d 1567, 157879 (Fed. Cir. 1997).

Case: 21-1120

Document: 9

Page: 3

Filed: 01/21/2021

NIXON V. GENERAL MOTORS CORPORATION

We also see no basis to transfer this case to another
court of appeals pursuant to 28 U.S.C. § 1631. That statute
states that “[w]henever ... an appeal ... is noticed for or
filed with such a court and that court finds that there is a
want of jurisdiction, the court shall, if it is in the interest
of justice, transfer such . . . appeal to any other such court
... in which the . . . appeal could have been brought at the
time it was filed or noticed[.]” An appeal to the appropriate
regional circuit, here the Fifth Circuit, could not have been
brought at the time it was noticed because, as the Fifth Cir­
cuit itself has explained, no final judgment has been issued
and the district court has not certified that immediate ap­
peal of any order is appropriate.
Accordingly,
It Is Ordered That:
(1) The appeal is dismissed.
(2) All pending motions are denied.
(3) Each side shall bear its own costs.
For the Court
January 21. 2021
Date
s29

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3

